CERTIFICATE OF SERVICE
NO. 19-894
Michael Yamashita and Michael Yamashita, Inc.
Petitioner(s)
v.
Scholastic Inc.
Respondent(s)
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the MICHAEL
YAMASHITA AND MICHAEL YAMASHITA, INC. REPLY BRIEF OF PETITIONERS, by shipping three (3) true
and correct copies of the same by FedEx 2-Day, prepaid for delivery to the following addresses:
Edward H. Rosenthal
Frankfurt Kurnit Klein & Selz, P.C.
28 Liberty Street, 35th Floor
New York, NY 10005
(212) 826-5524
erosenthal@fkks.com
Counsel for Scholastic Inc.

Lucas DeDeus

March 26, 2020
SCP Tracking: Harmon-101 South Third Street-Cover TAN

